4
\

C@QCKLE

= E-Mail Address:
Le ga I Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1039

PENNEAST PIPELINE COMPANY, LLC, PETITIONER,
v.
STATE OF NEW JERSEY, ET AL.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE
CHAMBER OF COMMERCE OF THE UNITED STATES OF AMERICA AND THE
PENNSYLVANIA CHAMBER OF BUSINESS AND INDUSTRY AS AMICI CURIAE IN
SUPPORT OF PETITIONER in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 5514 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ps My Comm. Exp. September 5, 2023

 

GENERAL NOTARY-State of Nebraska A 2 Z Z
RENEE J. GOSS 9. Ouida :

Notary Public Affiant 40680
